Supreme Court, U.S.
FILED

20-7685
No.

FEB 1 1 2021
OFFICE OF THE CLERK

In the Supreme Court of the United States

TERRANCE HEARD,
Petitioner;
v.
GRADY PERRY, Warden
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

PETITION FOR A WRIT OF CERTIORARI

TERRANCE HEARD, Pro se
S.C.C.F.
555 Forrest Ave.
Clifton, TN. 38425

miMfY

iiltkira

&\.

QUESTION PRESENTED
i.

Whether the Tennessee District Courts are correctly
considering whether a procedurally defaulted IATC claim is
substantial, having merit, presented under the Miller-El
Cockrell standard, which was defined in this Court's Martinez
v. Ryan, 132 S.Ct. 1309 (2012), decision, when the District
Courts are denying consideration of these claims, without any
factual development?

f

PARTIES TO THE PROCEEDINGS BELOW
There are no parties to the proceeding other than those listed in
the style of the case. Petitioner is Terrance Heard. Respondent is
Grady Perry, Warden.

in

Table of Contents
Petition tor a Writ of Certiorari...............................
Opinions Below........................................................
Statement Of Jurisdiction........................................
Question Presented...................................................
Constitutional And Statutory Provisions Involved.
II. U.S. CONST. AMEND. V.........................
HI. U.S. CONST. AMEND. VI........................
IV. FEDERAL STATUTORY PROVISIONS
Statement Of The Case.............................................
Parties To The Proceedings Below........................ .
Index To Appendices................................................
Table of Authorities..................................................
Reasons For Granting The Writ..............................
Conclusion................................... .........................
Proof Of Service.......................................................
Declaration Pursuant to 28 U.S.C. § 1746.............

1
1
1
2
2
2
2
2
3
3
5
6
6
12
13
14

iv

INDEX TO APPENDICES
Appendix A

Sixth Circuit Order Denying COA.

Appendix B

Opinion From The U.S. District Court
For The Western District Eastern
Division of Tennessee.

Appendix C

Opinion From The Tennessee Court
of Criminal Appeals.

Appendix D

Order From The Tennessee Supreme
Court Denying Application For
Permission To Appeal.

Appendix E

Constitutional And Statutory
Provisions Involved.

v

Table of Authorities
Federal Cases
Martinez v. Ryan, 566 U.S. 1 (2012)............................
Miller-El Cockrell, 537 U.S. 322 (2003).....................
Davilla v. Davis, 582 U.S.___(2017)...........................
Strickland v. Washington, 466 U.S. 668 (1984)..........
Slack v. McDaniel, 529 U.S. 473 (2000))....................
Dietrich v. Ryan, 740 F.3d 1237 (Dec. 10, 2012).......

3
6,7
7
7
7
8

Tennessee State Cases
Terrance Heard v. State, 2016 Tenn.Crim.App.(2016)

1

Federal Statutory Provisions
28 U.S.C. § 2254.......................................................
28 U.S.C..§ 1254(1)..................................................

1,2,3
1,2

28 U.S.C. § 2253(c)(2)..............................................

1,3

U.S. Supreme Court Rules
Sup. Ct. R. 13.1...........................................

1

U.S. Constitutional Provisions
U.S. CONST. AMEND. V....................................
U.S. CONST. AMEND. VI..................................

2
2

vi

PETITION FOR A WRIT OF CERTIORARI
Petitioner Terrance Heard respectfully petitions the Supreme Court of the
United States for a writ of certiorari to review the judgment of the United
States Court of Appeals for the Sixth Circuit, rendered and entered in Case
Number 19-6323, in that court on November 17, 2020, Terrance Heard v.
Grady Perry, Warden,' which affirmed the final order of the United States
District Court for the Western District of Tennessee for the Eastern Division
denying relief under 28 U.S.C. § 2254.

OPINIONS BELOW
A copy of the Order of the United States Court of Appeals for the Sixth
Circuit, Terrance Heard v. Grady Perry, Case No: 19-6323 (6th Cir. 2018),
appears at AppendixA, which affirmed the final Order from the United States
District Court for the Western District of Tennessee for the Eastern Division,
appearing at Appendix_B. The Opinion from the Tennessee Court of Criminal
Appeals wherein it was determined the 1ATC claim were not presented,
appears at Appendix_C. The Tennessee Supreme Court Order Denying
Application for Permission to Appeal, appears at Appendix_D.

STATEMENT OF JURISDICTION
The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1) and Part
Ill of the Rules of the Supreme Court of the United States. The decision of the
court of appeals was entered on November 17, 2020. This petition is timely
filed pursuant to Sup. Ct. R. 13.1. The district court had jurisdiction pursuant
to 28 U.S.C. § 2254. The court of appeals had jurisdiction pursuant to 28
U.S.C. § 2253(c)(2) in light of the district court’s denying a certificate of

T

See Attached Appendix A.

1

appealability.

I. CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED
Petitioners intend to rely upon the following Constitutional provision:

II. U.S. CONST. AMEND. V
The Fifth Amendment to the United States Constitution provides in relevant
part:
No person shall be held to answer for a capital, or otherwise
infamous crime, unless on a presentment or indictment of a Grand
Jury, . . . nor be deprived of life, liberty, or property, without due
process of law.

III. U.S. CONST. AMEND. VI
The Sixth Amendment to the United States Constitution provides in relevant
part:
In all criminal prosecutions, the accused shall enjoy the right
to.... to have the Assistance of Counsel for his defense.

IV. FEDERAL STATUTORY PROVISIONS
28 U.S.C. § 2254 provides in relevant part:
(a) The Supreme Court, a Justice thereof, a circuit judge, or a
district court shall entertain an application for a writ of habeas
corpus in behalf of a person in custody pursuant to the judgment
of a State court only on the ground that he is in custody in
violation of the Constitution or laws or treaties of the United
States.
28 U.S.C. § 1254 provides in relevant part:
Cases in the courts of appeals may be reviewed by the Supreme
Court by the following methods:
(1) By writ of certiorari granted upon the petition of any party to
any civil or criminal case, before or after rendition of judgment or
decree.
28 U.S.C. § 2253 provides in relevant part:
(c) (1) Unless a circuit justice or judge issues a certificate of
appealability, an appeal may not be taken to the court of appeals
from—
(A) the final order in a habeas corpus proceeding in which the
detention complained of arises out of process issued by a State
2

court;.....
(2) A certificate of appealability may issue under paragraph (1)
only if the applicant has made a substantial showing of the denial
of a constitutional right.

STATEMENT OF THE CASE
Petitioner Terrance Heard, State prisoner, serving a Life sentence for firstdegree murder, sought to vacate his conviction under 28 U.S.C. § 2254 Petition
for Writ of Habeas Corpus. Mr. Heard laid out several claims asserting he was
provided the ineffective assistance of trial counsel (IATC). Mr. Heard also set
forth that the claims regarding this IATC, were procedurally defaulted, of
which he could show cause and prejudice under Martinez v. Ryan, 566 U.S. 1
(2012).
On September 15, 1997, during the course of an enforcement of a gang
rule violation, from a gang based out of Memphis, Tennessee, known as the
Gangster Disciples, Marshall Shipp was killed. The gang rule violation
consisted of a 6 minute beating while in the middle of a circle formed by other
members of the gang. If you weren't a member of the gang then you would not
be allowed to be participate. Understanding this very important fact is relative
to the State withholding exculpatory evidence and presenting knowing false
testimony at Petitioner Heard's trial.
Ricky Aldridge and Timothy Aldridge, both self-admitted members of this
Gangster Disciple gang, participated in locating Shipp, going along with Shipp
to the place wherein the violation would be administered and participated in
the violation-beating that resulted in Shipp's death.
The plan was that a 6 minute beating would take place against Shipp and
Ricky Aldridge. There is undisputed facts that establish this was the States
position. This form of violation-beating was a lesser degree of punishment,

being there consisted various degrees of beatings, such as a mouth shot, a
three-minute beating, a six-minute beating, or a "pumpkin head deluxe,"
depending upon the severity of the violation. All of these beating punishments
involved the use of fists only, no weapons. The "pumpkin head deluxe"
involved putting the victim in a full nelson and allowing other members to beat
his head for six minutes until his head was the size of a pumpkin.
Somewhere amid the violation-beating of Shipp, it escalated to more,
being that tire irons and bats were used to beat Shipp to death. Another gang
member shot Shipp in the butt after the beating.
Ricky & Timothy Aldridge participated in the violation-beating of Shipp
and yet when they were presented before the jury, it was as if they were
victims. The prosecution went as far as to bolster their testimony, by stating that
they were not receiving any deals or promises in exchange for their testimony.
When in fact, the very acts both Ricky & Timothy Aldridge admitted to having
participated were exactly the same acts Petitioner was convicted of
participating.
Because none of these issues were raised by post-conviction counsel, the
issues were procedurally defaulted.2 Petitioner thereby raised them through the
Martinez gateway, establishing that he was denied his constitutional right to the
effective assistance of trial counsel. Post-conviction counsel fell below the
demanded norm in failing to raise this substantial claim in the post-conviction
proceedings.
Specifically, as it relates to the claims under twenty-eight through thirtyone, regarding the State withholding exculpatory evidence, the Sixth Circuit
erroneously holds Petitioner Heard to a higher standard set forth by Martinez.
2

Failed to prepare an adequate record for appellate review as required by Tenn.
R. App. P. 24(b).

4

which, under the 6lh Circuits standard under Martinez, requires Petitioner Heard
to prove the outcome of the proceedings would have been different. When in
fact, Martinez, simply requires a Petitioner to show that a reasonable jurist
would debate.
Based upon the fact that the State presented evidence by Ricky & Timothy
Aldridge, that: (1) they were members of the Gangster Disciples in Memphis,
Tennessee; (2) they both participated in voting about what form of violation
was to take place on Ricky and Shipp; and (3) they participated in serving the
violations.
The very same evidence that established the above three (3) essential facts,
is the exact same evidence the State used to prosecute and convict the
Petitioner. It is the exact same evidence the Sixth Circuit states is mere
speculation on the part of Petitioner that there was some kind of non­
prosecution agreement with Ricky & Timothy Aldridge.
It is unquestionable that the State never once has proven that the violation
being served on Ricky Aldridge and Marshal Shipp was anything other than a
6-minute violation-beating. It is unquestionable that if Ricky Aldridge and
Timothy Aldridge voted on and participated in beating of Shipp, the only way
the State would not have prosecuted them is if they were given a non­
prosecution agreement. The undisputed fact that trial counsel had these very
same essential facts before him and thought enough to ask whether there was
an agreement during trial and file pretrial motions seeking non-prosecution
agreements between the State and these witnesses, goes to show it was much
more than mere speculation. A reasonable jurist would debate the fact if trial
counsel went as far as having this much interest but never once was provided
an evidentiary setting to develop the facts, or sought out such, this was in fact a
5

substantial claim that should have been raised in the post-conviction
proceedings.
Furthermore, Petitioner Heard submitted responses to the Request For
Admissions establishing Robert Walker received a deal, when the State
assistant district attorney general admitted as much in response to the request
for admissions. These request for admissions were part of the Motion seeking
fact-development procedures to be held so that it would determine the facts
regarding the Martinez.
The district court denied all the fact-development procedures sought by
Petitioner. Turning around and stating that the Petitioner has provided no
affidavits or evidence supporting his assertions. Fact is, had the 1ATC claim
been properly considered under Martinez's "substantial" claim standard under
Miller-El Cockrell, 537 U.S. 322 (2003), it would have been considered a
substantial claim, being that reasonable jurist would debate the fact that if the
State provided the evidence being sought, it would show there was favorable
treatment being given to the State's witnesses in exchange for their testimony.
Namely, the fact it was not prosecuting active participants in the offense of
which they were prosecuting Petitioner Heard. A crucial fact the trier of fact,
(jury) must have in order to protect Petitioner Heard's due process rights
secured under the 14th Amendment of the United States Constitution.

REASONS FOR GRANTING THE WRIT
I.

The Court Should Grant The Writ To Clarify The
Standard Under Which Procedurally Defaulted Claims Of
IATC Are Considered "Substantial" Under Martinez V.
Ryan.
In March of 2012, in Martinez v. Ryan, the U.S. Supreme Court announced

6

a new type of cause under the cause-and-prejudice exception to procedural
default in federal habeas cases. This new type of cause allowed federal courts
to review a subset of claims that had been procedurally defaulted in State
habeas proceedings due to the ineffectiveness of post-conviction counsel. The
parameters of that subset were the source of a heated debate on the Supreme
Court. 1 he majority, limiting its analysis to the facts before it, claimed that the
new cause excused only claims of IATC. The dissent, however, argued that the
new cause would apply to other claims as well. That has since been decided by
this Court in Davilla v. Davis, 582 U.S.___(2017). However, the crux of many
of the claims of ineffective assistance of trial counsel that are failing to be
considered are based upon the unclear meaning of what a substantial claim is.
The application of Martinez and the standard of considering whether or not
a petitioner clears the procedural default bar are unclear across the circuits, and
unclear within these individual circuits. When considering whether an IATC
claim is a "substantial" claim to excuse procedural default, this Court should
clarify exactly what "substantial means under Miller-El Cocb-ell, when being
considered under Strickland v. Washington, 466 U.S. 668 (1984).

A. Defining Substantial for Petitioners Claims of ineffective
Assistance of Trial Counsel
The substantial claim requirement is met if Heard’s IATC claim is
uc

substantial,’ meaning ‘the claim has some merit,’ analogous to the

substantiality requirement for a certificate of appealability.” (quoting Martinez
556 U.S. I, 14)). Thus, the question, for Martinez purposes, is merely whether
“reasonable jurists could debate” that Heard’s IATC claim has merit, or
whether the claim is “adequate to deserve encouragement to proceed further.”
Miller-El v. Cockrell, 537 U.S. 322, 336 (2003) (quoting Slack v. McDaniel,
7

529 U.S. 473, 483 (2000)). In considering whether Heard's IATC claim is
substantial, the district court is guided by the two-part Strickland analysis, but
should remain mindful that the “substantiality” inquiry does not require full
consideration of the factual or legal bases adduced in support of the claims.
Heard s IATC claim is “adequate to deserve encouragement to
proceed further. Trial counsel’s performance fell below an objective
standard of reasonableness, satisfying the performance prong of
Strickland, when there are two witnesses testifying as to their actual
involvement counsels client is being accused and counsel never objects
or seeks out the fact why they are not being charged. Trial counsel
simply asked whether they were receiving any leniency and when they
responded no, trial counsel shrugs and states there are no further
questions. There is no discernible strategic reason why trial counsel
would refrain from making an inquiry, after all, counsel did ask about
receiving a deal. With respect to the prejudice prong of Strickland as it
might have been envisioned in Martinez, the Martinez Court does not
address it, other than to say at the conclusion of the opinion that the court
of appeals “did not address the question of prejudice.” Id. at 18.
It would seem that, in light of the relatively light “substantiality”
test regarding the merits of the IATC claim, a strict prejudice analysis for
Martinez purposes would be misplaced. Indeed, the “Ninth Circuit Court
of Appeals addressed this issue and reasoned that if a petitioner “were
required to show prejudice, in the ordinary Strickland sense,” at the
Martinez stage, “this would render superfluous the . .

Martinez

requirement of showing that the underlying Strickland claims were
‘substantial’— that is, that they merely had ‘some merit.’” See Dietrich
8

v. Ryan, 740 F.3d 1237. 1246 (Dec. 10, 2012)), (quoting Martinez, 566
U.S. at 14). In other words, a somewhat relaxed prejudice analysis, in the
Detrich court’s eyes, was “necessary to harmonize” the various Martinez
requirements.
It could be that the need for a showing of prejudice at the Martinez
stage might rise and fall depending upon the strength of the 1ATC claim.
Here, where counsel’s performance was shown that he questioned
whether these witnesses for the State were being given leniency in
exchange for their testimony, being that the witnesses admitted to have
participated in the essential elements of the offense his client was being
tried for, but by failing to go through the gate regarding the State offering
leniency to them seems clearly substandard under the first prong of
Strickland.
Petitioner Heard avers that an evidentiary hearing may be necessary
to determine whether trial counsel was ineffective. See Martinez, 566
U.S. at 11-12 (noting that IATC claims can require “investigative work”
and that the prisoner is in no position to develop the evidentiary basis
for a claim of ineffective assistance, which often turns on evidence
outside the trial record”). A hearing is particularly useful in this case
since Heard’s IATC claim turns on the performance prong of Strickland.
Since, in order to determine whether Heard's attorney’s performance was
deiicient, it is necessary to ask the attorney to state the strategic or
tactical reasons for his actions. Here, where Heard’s IATC claim hinges
on the prejudice prong of Strickland, and the factual record has never
been fully developed on that issue, evidentiary hearing is necessary.
The district court denied the IATC claim based upon a position that
9

no affidavits or evidence were submitted in support of the claims that the
Aldridge brothers had agreements with the State for leniency. When it is
undisputed that the district court recognizes that the State objected to and
the Court denied having any fact-development procedures.
However, the district court holds Petitioner Heard to a higher
standard attempts to reach the merits of the Strickland analysis by stating
"Robert Walker’s testimony betrays Petitioner’s allegations. (R. ECF No.
15-10 at PagelD 1554-56.) Walker testified during trial that he expected
the prosecutor to consider his trial testimony in resolving his pending
aggravated robbery charge. Petitioner’s trial counsel cross-examined
Walker about his expectation of leniency. (Id. at PagelD 1609-11.) Plus
Ricky Aldridge testified that the State did not charge him for his role in
this case. {Id. at PagelD 1516.)"
The fact is, during the State court's determination on direct appeal,
the Court determined that Walker held the position of chief of security
for Memphis in the Gangster Disciples organization until he was arrested
on two counts of aggravated robbery in the fall of that year. Walker later
pled guilty to two counts of facilitation of robbery and agreed to
cooperate with the State in this case. This would appear at the time of
Mr. Heard's trial that no deal had been reached. However, based upon the
guilty plea proceedings, the district attorney general made it clear that the
negotiated plea deal between Walker and the State of Tennessee was
based upon his favorable testimony against the individuals on the Shipp
murdei. In fact the State offered Robert Walker, who had confessed to at
least two prior murders and was directly involved with the Shipp murder,
a time served deal on an Aggravated Robbery, wherein he was facing a
10

30 year minimum sentence.
As for the showing of prejudice under the Strickland prong, requires
a petitioner to demonstrate “that there is a reasonable probability that, but
foi counsel s unprofessional errors, the result of the proceeding would
have been different. A reasonable probability is a probability sufficient to
undeimine confidence in the outcome.” To make this determination,
federal habeas courts must weigh the evidence adduced in the habeas
proceeding and that adduced at trial against the aggravating evidence.
The problem in the district courts in Mr. Heard’s case, is the fact that
there has been no evidence adduced in any proceeding wherein factualdevelopment of his IATC claim, was conducted. These are precisely the
cii cumstances that led this Court in Martinez v. Ryan, to recognize a
narrow exception to the procedural default doctrine under which the
ineffective

assistance

of counsel

in

an

initial-collateral-review-

proceeding may provide "cause" to excuse the default of a substantive
claim of ineffective assistance of trial counsel. As in Martinez and
Trevino, the Tennessee system makes the

State post-conviction

proceedings the first occasion for prisoners to develop the record
necessary to establish ineffective assistance of trial counsel.
Holding Mr. Heard to a higher standard in presenting a "substantial
claim of IATC under Martinez, is contrary to this Courts reasons why it
opened the narrow exceptions of Coleman, procedural default gate in
Martinez and should be clearly established.

CONCLUSION
Whereas the above premise being considered, this Court should
giant the instant Writ of Certiorari to the Court of Appeals for the Sixth
11

Circuit and reverse the judgment below, remanding the case to permit
Heard fact-development on his IATC claim under the standards set forth
in Martinez.
Respectfully Submitted,

Terrance Heard
October 2020

12

